     DEPARTMENT OF HEALTH & HUMAN SERVICES                          Office of Inspector General

                                                                    Office of Audit Services, Region V
                                                                    233 North Michigan Avenue
                                                                    Suite 1360
                                                                    Chicago, IL 60601



July 16, 2010

Report Number: A-05-09-00102

Douglas E. Lumpkin
Director
Ohio Department of Job and Family Services
30 E. Broad St
Columbus, Ohio 43215

Dear Mr. Lumpkin:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General, final report entitled Review of Ohio’s Reporting Fund Recoveries for Federal and State
Programs on the CMS-64 for Fiscal Years 2008 Through 2009. We will forward a copy of this
report to the HHS action official noted on the following page for review and any action deemed
necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Lynn Barker, Audit Manager, at (317) 226-7833 extension 21 or through email at
Lynn.Barker@oig.hhs.gov. Please refer to report number A-05-09-00102 in all correspondence.

                                             Sincerely,



                                             /James C. Cox/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Douglas E. Lumpkin


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600 Chicago, IL 60601
 Department of Health & Human Services
               OFFICE OF
          INSPECTOR GENERAL


    REVIEW OF OHIO’S REPORTING
       FUND RECOVERIES FOR
FEDERAL AND STATE PROGRAMS ON THE
   CMS-64 FOR FISCAL YEARS 2008
          THROUGH 2009




                          Daniel R. Levinson
                           Inspector General

                              July 2010
                            A-05-09-00102
                       Office of Inspector General
                                         http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.




                                                    i
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to certain low-income individuals and individuals with disabilities. The
Federal and State Governments jointly fund and administer the Medicaid program. At the
Federal level, the Centers for Medicare & Medicaid Services (CMS) administers the program.
Each State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements.

In Ohio, the Department of Job and Family Services (State agency) administers the Medicaid
program. The State agency uses a statewide surveillance and utilization control program to
safeguard against unnecessary or inappropriate use of Medicaid services and excess payments.
The State agency contracted with Health Care Excel, Inc. (HCE), and Permedion to conduct
State Medicaid audits of Medicaid providers. In addition, the Office of Fiscal and Monitoring
Services (OFMS) and the Medicaid Fraud Control Unit (MFCU) conducted audits and
investigations, respectively of Medicaid providers. When they identified overpayments, OFMS,
HCE, and Permedion sent letters on behalf of the State agency to the providers that (1) identified
the overpayment amounts and applicable interest charges and (2) directed the providers to send
payments to the State agency, or notified providers of future payments offsets.

Section 1903(d)(2) of the Act, requires the State to refund the Federal share of a Medicaid
overpayment. Implementing regulations (42 CFR § 433.312) require the State agency to refund
the Federal share of an overpayment to a provider at the end of the 60-day period following the
date of discovery, whether or not the State agency has recovered the overpayment. The date of
discovery for situations other than fraud or abuse is the date that a provider is first notified in
writing of an overpayment and the specified dollar amount subject to recovery (42 CFR
§ 433.316(c)). For provider overpayments resulting from fraud or abuse, discovery occurs on the
date of the State’s final written notice of the overpayment determination (42 CFR §433.316(d)).
Federal regulations (42 CFR § 433.304) define an overpayment as “… the amount paid by a
Medicaid agency to a provider in excess of the amount that is allowable for the services
furnished under section 1902 of the Act and which is required to be refunded under section 1903
of the Act.” In addition, Federal regulations (45 CFR § 92.21(f)(2)) require the State agency to
report interest earned on overpayments before requesting additional Federal funds. Because the
Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program, Form
CMS-64 (CMS-64), is due on a quarterly basis, the CMS State Medicaid Manual requires the
Federal share of the overpayments be refunded no later than the quarter in which the 60-day
period ends.

OBJECTIVE

Our objective was to determine whether Medicaid overpayments and the interest earned on those
overpayments were reported on the CMS-64 in accordance with Federal regulations.



                                                 i
SUMMARY OF FINDINGS

Although the State agency reported Medicaid overpayments on the CMS-64, it did not always do
so within the 60-day time requirement. In addition, the State agency did not report interest it
collected on seven overpayments totaling $24,823 ($14,645 Federal share).

The State agency had not developed and implemented internal controls to ensure that it correctly
reported Medicaid overpayments and the associated interest it collected from recovered
overpayments on the CMS-64.

RECOMMENDATIONS

We recommend that the State agency:

   •   include unreported interest collected on Medicaid recoveries totaling $24,823 on the
       CMS-64 and refund $14,645 to the Federal Government, and

   •   develop and implement internal controls to correctly report and refund the Federal share
       of identified Medicaid overpayments and interest collected on the overpayments on the
       CMS-64.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our recommendations.
The State agency’s comments are included in their entirety as Appendix B.




                                               ii
                                                  TABLE OF CONTENTS
                                                                                                                                      Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
              Medicaid Program................................................................................................1
              Federal Requirements for Medicaid Overpayments ...........................................1
              Federal Requirements for Interest Earned ...........................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................3
               Objective ..............................................................................................................3
               Scope ....................................................................................................................3
               Methodology ........................................................................................................3

FINDINGS AND RECOMMENDATIONS ............................................................................4

          OVERPAYMENTS NOT REPORTED TIMELY ..........................................................5

          INTEREST NOT REPORTED ........................................................................................5

          POTENTIALLY HIGHER INTEREST EXPENSE........................................................6

          INTERNAL CONTROLS NOT IMPLEMENTED.........................................................6

          RECOMMENDATIONS .................................................................................................6

          STATE AGENCY COMMENTS ....................................................................................6

OTHER MATTERS ..................................................................................................................6


APPENDIXES:

          A: SAMPLING METHODOLOGY

          B: STATE AGENCY COMMENTS




                                                                    iii
                                       INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with Federal requirements.

The Federal Government pays its share (Federal share) of State Medicaid expenditures according
to a defined formula. To receive Federal reimbursement, State Medicaid agencies are required to
report expenditures on the Quarterly Medicaid Statement of Expenditures for the Medical
Assistance Program, Form CMS-64 (CMS-64).

In Ohio, the Department of Job and Family Services (State agency) administered the Medicaid
program. The State Medicaid agency implements a statewide surveillance and utilization control
program to safeguard against unnecessary or inappropriate use of Medicaid services and excess
payments. The State agency contracted with Health Care Excel, Inc. (HCE), and Permedion to
conduct surveillance and utilization review audits of Medicaid providers. The Office of Fiscal
and Monitoring Services (OFMS) conducted federally required audits and provided overpayment
findings to the State. The State Medicaid Fraud Control Unit (MFCU) obtained settlements from
Medicaid providers in situations related to fraud and abuse investigations. All together, OFMS,
MFCU, HCE, and Permedion issued 15,398 audit reports, settlement agreements, and
overpayment letters to the State agency or Medicaid providers on behalf of the State agency. In
addition, the agreements and letters directed the providers to send payment either to the
appropriate contractor or to the State agency or notified providers of future payment offsets.

Federal Requirements for Medicaid Overpayments

The Federal Government does not participate financially in Medicaid payments for excessive or
erroneous expenditures. Section 1903(d)(2)(A) of the Act requires the Secretary to recover the
amount of a Medicaid overpayment. Federal regulations (42 CFR § 433.304) define an
overpayment as “… the amount paid by a Medicaid agency to a provider in excess of the amount
that is allowable for services furnished under section 1902 of the Act and which is required to be
refunded under section 1903 of the Act.” A State has 60 days from the discovery of a Medicaid
overpayment to a provider to recover or attempt to recover the overpayment before the Federal
share of the overpayment must be refunded to CMS. Section 1903(d)(2)(C) of the Act, as
amended by the Consolidated Omnibus Budget Reconciliation Act of 1985, and Federal
regulations at 42 CFR part 433, subpart F, require a State to refund the Federal share of
overpayments at the end of the 60-day period following discovery whether or not the State has




                                                1
recovered the overpayment from the provider. 1 Pursuant to 42 CFR § 433.316(c), an
overpayment that is not a result of fraud or abuse is discovered on the earliest date:

        (1) … on which any Medicaid agency official or other State official first notifies a
        provider in writing of an overpayment and specifies a dollar amount that is
        subject to recovery; (2) … on which a provider initially acknowledges a specific
        overpaid amount in writing to the medicaid agency; or (3) … on which any State
        official or fiscal agent of the State initiates a formal action to recoup a specific
        overpaid amount from a provider without having first notified the provider in
        writing.

Under 42 CFR § 433.316(d), an overpayment resulting from fraud or abuse is discovered on the
date of the final written notice of the State’s overpayment determination that a Medicaid agency
official or other State official sends to the provider. For overpayments identified through Federal
reviews, 42 CFR § 433.316(e) provides that an overpayment is discovered when the Federal
official first notifies the State in writing of the overpayment and the dollar amount subject to
recovery.

In addition, Federal regulations (42 CFR § 433.320) require that the State refund the Federal
share of an overpayment on its quarterly Form CMS-64. Provider overpayments must be
credited on the CMS-64 submitted for the quarter in which the 60-day period following
discovery ends.

Federal Requirements for Interest Earned

Federal regulations (45 CFR § 92.21(f)(2)) state that “… grantees and subgrantees shall disburse
program income, rebates, refunds, contract settlements, audit recoveries and interest earned on
such funds before requesting additional [Federal] cash payments.” Federal grant administration
regulations (45 CFR part 92) became applicable to the Medicaid program on September 8, 2003.
For prior periods, similar provisions (45 CFR part 74) were applicable. In addition, the
Departmental Appeals Board (DAB) has determined that where Federal funds are used to
produce interest payments, these payments constitute an applicable credit within the meaning of
Office of Management and Budget Circular A-87 (2 CFR part 225). CMS is entitled to a share
in the amount of any interest collected (e.g., New Jersey Department of Human Services, DAB
No. 480 (1983)).

Section 2500.1 of CMS’s State Medicaid Manual instructs the State to report the Federal share of
any interest received or earned on Medicaid recoveries on the CMS-64 Summary Sheet.




1
  Section 1903(d)(2)(C) and (D) of the Act and Federal regulations (42 CFR § 433.312) do not require a State to
refund the Federal share of uncollectable amounts paid to bankrupt or out-of-business providers.



                                                         2
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Medicaid overpayments and the interest earned on those
overpayments were reported on the CMS-64 in accordance with Federal regulations.

Scope

Our review covered Medicaid provider overpayments that were identified in audit reports,
settlement agreements, and overpayment letters issued to providers that should have been
reported on the CMS-64 during Federal fiscal years (FY) 2008 and 2009. We reviewed 131 of
the 15,398 identified overpayments totaling $324,616,292. The identified audit reports,
settlement agreements, and overpayment letters represent overpayments of $1,000 or more for
Medicaid services that were subject to the 60-day rule.

We did not review the overall internal control structure of the State agency. We limited our
internal control review to obtaining an understanding of the identification, collection, and
reporting policies and procedures for Medicaid overpayments and related interest collected.

We performed fieldwork at the State agency in Columbus, Ohio, from August 2009 through
January 2010.

Methodology

To accomplish our audit objective, we:

   •    reviewed Federal laws, regulations, and other requirements governing Medicaid
        overpayments and related interest earned;

   •    interviewed State agency and OFMS officials regarding policies and procedures relating
        to Medicaid audits and reporting overpayments on the CMS-64;

   •    identified 15,398 overpayments of $1,000 or more for Medicaid services subject to the
        60-day rule, which totaled $324,616,292;

   •    selected a stratified random sample of 131 overpayments: 100 from 15,367
        overpayments of $1,000 to $1 million and all 31 overpayments of more than $1 million
        (Appendix A);

   •    established the dates of discovery using the dates that OFMS, HCE, and Permedion,
        notified Medicaid providers in writing, on behalf of the State agency, of the
        overpayments and the dollar amount and interest subject to recovery;

   •    established dates of discovery using the settlement agreement date for the MFCU
        investigations of the overpayment and interest subject to recovery;


                                                3
    •   determined the quarter in which the 60-day period following discovery of the
        overpayment ended;

    •   reviewed the CMS-64 to determine whether the Medicaid overpayments and interest
        earned were reported for the quarter in which the 60-day period following discovery
        ended;

    •   reviewed the CMS-64 to determine whether Medicaid overpayments and interest
        collected were reported during any subsequent quarter through December 31, 2009;

    •   determined whether overpayments were processed directly through the MMIS system and
        included on other lines of the CMS-64;

    •   determined if providers selected as part of our sample were bankrupt or out of business;
        and

    •   computed the potentially higher interest expense to the Federal Government resulting
        from overpayments and income not reported within the required timeframe using the
        number of days between required reporting dates and the Ohio FY ending December 31,
        2009. 2

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                              FINDINGS AND RECOMMENDATIONS

Although the State agency reported Medicaid overpayments on the CMS-64, it did not always do
so within the 60-day time requirement. In addition, the State agency did not report interest it
collected on seven overpayments totaling $24,823 ($14,645 Federal share).

The State agency had not developed and implemented internal controls to ensure that it correctly
reported Medicaid overpayments and the associated interest it collected from recovered
overpayments on the CMS-64.

Because the overpayments were not properly reported on the CMS-64, the Federal Government
may have incurred increased interest expense of $19,877.




2
 We calculated the interest expense using the applicable daily interest rates pursuant to the Cash Management
Improvement Act of 1990, P.L. No. 101-453.


                                                         4
OVERPAYMENTS NOT REPORTED TIMELY

Pursuant to 42 CFR § 433.312(a)(2), the State agency “… must refund the Federal share of
overpayments at the end of the 60-day period following discovery … whether or not the State
has recovered the overpayment from the provider.” For situations other than fraud and abuse,
Federal regulation (42 CFR § 433.316(c)) defines the date of discovery as the date that a
provider was first notified in writing of an overpayment and the specified dollar amount subject
to recovery. For overpayments resulting from fraud or abuse, the date of discovery is defined at
42 CFR § 433.316(d) as the date of the final written notice of the overpayment determination
that the State sends to the provider. For overpayments identified through Federal reviews, CMS
will consider the overpayment discovered on the date the Federal official first notifies the State
in writing of the overpayment amount. These regulations do not allow for extending the date.

The State agency did not report all Medicaid provider overpayments in accordance with the
60-day requirement. Of the 131 sampled overpayments, the State agency reported 113 3
overpayments on the CMS-64. For the 113 overpayments that were reported, 77 overpayments
totaling $3,473,887 ($2,103,893 Federal share) were not reported on the CMS-64 at the end of
the 60-day period. The untimely reporting resulted from the State agency’s unwritten policy of
allowing the provider appeals process to occur for non fraud and abuse overpayments rather than
the date of discovery.

INTEREST NOT REPORTED

Pursuant to 45 CFR § 92.21(f)(2), the State agency “… shall disburse program income, rebates,
refunds, contract settlements, audit recoveries and interest earned on such funds before
requesting additional [Federal] cash payments.” Federal grant administration regulations
(45 CFR part 92) became applicable to the Medicaid program on September 8, 2003. For prior
periods, similar provisions (45 CFR part 74) were applicable. In addition, the Departmental
Appeals Board (DAB) has determined that where Federal funds are used to produce interest
payments, these payments constitute an applicable credit within the meaning of Office of
Management and Budget Circular A-87 (now codified at 2 CFR part 225). CMS is entitled to a
share in the amount of any interest collected (e.g., New Jersey Department of Human Services,
DAB No. 480 (1983)).

In accordance with Federal requirements, section 2500.1 of the State Medicaid Manual instructs
State agencies to report interest earned on Medicaid recoveries on the CMS-64 Summary Sheet.

As a result of State Medicaid audits issued from FYs 2008 through 2009, the State agency
collected interest on recovered overpayments. For the 131 Medicaid overpayments reviewed, the
State agency collected interest totaling $61,194 for seven overpayments and should have
reported $24,823 ($14,644 Federal share) on the CMS-64.


3
  18 of the selected overpayments were not required to be reported on the CMS-64. Seven overpayments
represented the Federal share only and were paid directly to the Federal government through the court system; six
overpayments represented the State share only; one overpayment was a bankruptcy; and the remaining four
overpayments were reduced to zero in our audit period.


                                                         5
POTENTIALLY HIGHER INTEREST EXPENSE

Because the State agency did not report some overpayments and was not timely in reporting
others, the Federal Government did not have the use of these funds. As a result, the Federal
Government potentially incurred an increased interest expense of $19,877. However, we did not
include this Federal interest cost in the amount of the overpayments we recommend that the State
agency should refund.

INTERNAL CONTROLS NOT IMPLEMENTED

The State agency did not develop and implement internal controls to ensure that it correctly
reported on the CMS-64 interest it collected from recovered overpayments.

RECOMMENDATIONS

We recommend that the State agency:

   •   include unreported interest it collected on Medicaid recoveries totaling $24,823 on the
       CMS-64 and refund $14,645 to the Federal Government, and

   •   develop and implement internal controls to correctly report and refund the Federal share
       of identified Medicaid overpayments and interest it collected on the overpayments on the
       CMS-64.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our recommendations.
The State agency’s comments are included in their entirety as Appendix B.

                                     OTHER MATTERS

The State agency did not report Medicaid overpayments from State Medicaid audits on the
correct line of the CMS-64. Of the 113 sampled overpayments that were reported on the
CMS-64, 78 were reported incorrectly. In addition, the State agency did not report Medicaid
overpayments from State Medicaid audits at the correct Federal Medical Assistance Percentages
(FMAP). Currently, the State agency reports Medicaid overpayments at the current quarter
FMAP rate, rather than the FMAP rate at the time the claim was submitted on the CMS-64.




                                                6
APPENDIXES
                                                                                      Page 1 of 2


                      APPENDIX A: SAMPLING METHODOLOGY

POPULATION

The population consists of overpayments that have an initial finding date during August 1, 2007
through August 10, 2009. Each record represents a Medicaid overpayment identified by Federal
and State audits. The State uses various subcontractors to conduct Medicaid audits, therefore the
data will be coming from several different sources.

SAMPLING FRAME

The Office of Job and Family Services (State agency) provided lists of Medicaid overpayments
identified by the Office of Fiscal and Monitoring Services, Health Care Excel Inc., Permedion,
and the Medicaid Fraud Control Unit for the period of August 2007 through August 2009. The
sampling frame was limited to overpayments exceeding $1,000.

The sampling frame is an excel file containing 15,398 Medicaid overpayments with total
projected recovery of $324,616,292. The sampling frame was separated into 2 strata. Stratum 1
consists of 15,367 State agency identified Medicaid overpayments between $1,000 and
$1,000,000, with a total projected recovery of $190,965,951. Stratum 2 consists of 31 State
agency identified Medicaid overpayments exceeding $1,000,000 with a total projected recovery
of $133,650,341.

SAMPLE UNIT

The sample unit was a Medicaid provider overpayment.

SAMPLE DESIGN

We used a stratified random sample, defined as follows:

Stratum 1: 15,367 Medicaid overpayments between $1,000 and $1,000,000, with a total
projected recovery of $190,965,951. This stratum contains only State agency generated audits.

Stratum 2: 31 Medicaid overpayments exceeding $1,000,000, with total a projected recovery of
$133,650,341. This stratum contains only State agency generated audits.

SAMPLE SIZE

We selected a random sample of 100 items from the sampling frame of 15,367 Medicaid
provider overpayments in stratum 1 and reviewed all 31 sample items in stratum 2.
                                                                                  Page 2 of 2


SOURCE OF RANDOM NUMBERS

Random numbers were generated by the Department of Health & Human Services, Office of
Inspector General (OIG), Office of Audit Service’s (OAS) RAT-STATS statistical software
package.

ESTIMATION METHODOLOGY

We used the OIG/OAS statistical software to estimate the amount of Medicaid provider
overpayments not properly reported.
                                    Page 1 of 4

APPENDIX B: STATE AGENCY COMMENTS
Page 2 of 4
Page 3 of 4
Page 4 of 4
